TN

2311 Douglas Street CO eg KLE

E-Mail Address:
Omaha, Nebraska 68102-1214

Hat. i923 contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850

No. 19-995

MICHAEL J. MURRAY, M.D.,
Petitioner,
v.
MAYO CLINIC, A MINNESOTA
NONPROFIT CORPORATION, et al.,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the RESPONDENTS’ BRIEF IN
OPPOSITION TO PETITION FOR A WRIT OF CERTIORARI in the above entitled case
complies with the typeface requirement of Supreme Court Rule 33.1(b), being prepared in New
Century Schoolbook 12 point for the text and 10 point for the footnotes, and this brief contains
6544 words, excluding the parts that are exempted by Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 10th day of March, 2020.
1am duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

General Notary ‘
State of Nebraska a C Clie Qudraw-h. Chi,
My Commission Expires Nov 24, 2020

Notary Public Affiant

 

39540
